Pension Benefit Guaranty Corporation
    Office of Inspector General
           AUDIT REPORT




   Fiscal Year 2012 Federal Information
    Security Management Act (FISMA)
      Independent Evaluation Report




               May 1, 2013
                                  Eval -2013-6/FA-12-88-5
                         Pension Benefit Guaranty Corporation
                                                         Office of Inspector General
                                         1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                    May 1, 2013

To:             Josh Gotbaum
                Director

From:           Candace Milbry
                Acting Assistant Inspector General for Audit

Subject:        Fiscal Year 2012 Federal Information Security Management Act
                Independent Evaluation Report (Eval 2013-06/FA-12-88-5)


I am pleased to transmit the fiscal year (FY) 2012 Federal Information Security Management
Act (FISMA) independent evaluation report, detailing the results of our independent public
accountants’ review of the Pension Benefit Guaranty Corporation (PBGC) information
security program. This is the sixth report related to the fiscal year 2012 financial statements
audit (AUD-2013-1/FA-12-88-1).

As prescribed by FISMA, the PBGC Inspector General is required to conduct annual
evaluations of the PBGC security programs and practices, and to report to the Office of
Management and Budget (OMB) the results of this evaluation. CliftonLarsonAllen LLP, on
behalf of the PBGC OIG, completed the OMB-required responses that we then submitted
to OMB on November 15, 2012. This evaluation report provides additional information on
the results of CliftonLarsonAllen’s review of the PBGC information security program.

Overall, the auditors determined that Information Technology (IT) continues to be a
challenge for PBGC. The OIG and others have consistently identified serious internal
control vulnerabilities and systemic security control weaknesses in the IT environment over
the last several years. PBGC’s delayed progress in mitigating these deficiencies at the root-
cause level continued to pose increasing and substantial risks to PBGC’s ability to carry out
its mission during FY 2012. Due to the persistent nature and extended time required to
mitigate such vulnerabilities, additional risks threaten PBGC’s ability to safeguard its systems.
These risks include technological obsolescence, inability to execute corrective actions,
breakdown in communications, and poor monitoring. PBGC has made some progress in
addressing IT security weaknesses at the root-cause level by continuing the implementation
of its FY 2010 Enterprise Corrective Action Plan (CAP), and introducing additional
reporting controls to track progress.

The response to a draft of this report indicates PBGC’s agreement with all recommendations
and documents expected completion dates. We would again like to take this opportunity to
express our appreciation for the overall cooperation that CliftonLarsonAllen and the OIG
received while performing the audit.

Attachment
cc: Judith R. Starr   Barry West
    Patricia Kelly    Martin O. Boehm
    Alice Maroni      Ann Orr




                              2
                                                                   CliftonLarsonAllen LLP
                                                                   www.cliftonlarsonallen.com




Ms. Rebecca Anne Batts
Inspector General
Pension Benefit Guaranty Corporation
1200 K Street, N.W.
Washington DC 20005-4026

Dear Ms. Batts:

We are pleased to provide the Fiscal Year (FY) 2012 Federal Information Security Management
Act (FISMA) Independent Evaluation Report, detailing the results of our review of the Pension
Benefit Guaranty Corporation (PBGC) information security program.

FISMA requires Inspectors General (IG) to conduct annual evaluations of their agency’s
security programs and practices, and to report to Office of Management and Budget (OMB)
the results of their evaluations. OMB Memorandum M-12-20, “FY 2012 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management”
provides instructions for completing the FISMA evaluation. Evaluations conducted by Offices
of Inspector General (OIG) are intended to independently assess whether the agencies are
applying a risk-based approach to their information security programs and the information
systems that support the conduct of agency missions and business functions.

CliftonLarsonAllen LLP completed the required responses on behalf of the PBGC OIG. The OIG
then reviewed, approved, and submitted the responses to OMB on November 15, 2012. This
evaluation report provides additional information on the results of our review of the PBGC
information security program.

In preparing required responses on behalf of the OIG, we coordinated with PBGC management
and appreciate their cooperation in this effort. PBGC management has provided us with a
response (dated April 24, 2013) to the draft FISMA 2012 Independent Evaluation Report.



a
Calverton, Maryland
April 24, 2013
                                                                                                                                                     Page
                                                            TABLE OF CONTENTS




I.         EXECUTIVE SUMMARY .................................................................................................................... 2

II.        BACKGROUND .................................................................................................................................. 2

III.       OBJECTIVES ...................................................................................................................................... 3

IV.        SCOPE & METHODOLOGY............................................................................................................... 3

V.         SUMMARY OF CURRENT YEAR TESTING ..................................................................................... 4

VI.        FINDINGS AND RECOMMENDATIONS ............................................................................................ 5

      1.    Information Technology Controls for The Protection of Privacy ............................................... 5
      2.    Plan of Action and Milestones (POA&M) ..................................................................................... 7
VII.       FISMA-RELATED FINDINGS REPORTED IN THE FINANCIAL STATEMENT AUDIT ................... 9

VIII. FISMA RECOMMENDATIONS CLOSED IN FISCAL YEAR 2011.................................................. 17

IX.        PRIOR AND CURRENT YEARS’ OPEN FISMA RECOMMENDATIONS ....................................... 17

X.         MANAGEMENT RESPONSE ........................................................................................................... 18
I.    EXECUTIVE SUMMARY

Title III of the E-Government Act (Public Law No. 104-347), also called the Federal Information
Security Management Act (FISMA), requires agencies to adopt a risk-based, life cycle approach
to improving computer security that includes annual security program reviews, independent
evaluations by the Inspector General (IG), and reporting to the Office of Management and
Budget (OMB) and the Congress. It also codifies existing policies and security responsibilities
outlined in the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

We are reporting two (2) FISMA findings with ten (10) recommendations for Fiscal Year (FY)
2012 based on the results of our FY 2012 independent evaluation. We note that these are the
total of findings and recommendations related to information technology weaknesses. In
addition to those in this report, thirteen (13) FISMA-related findings with thirty-four (34)
recommendations were reported in the Corporation’s FY 2012 internal control report based on
our FY 2012 financial statements audit work. Based on the number of unremediated outstanding
recommendations, PBGC does not have an effective information security program.

II.   BACKGROUND

The Pension Benefit Guaranty Corporation (PBGC) protects the pensions of approximately 43
million workers and retirees in more than 25 thousand private defined benefit pension plans.
Under Title IV of the Employee Retirement Income Security Act of 1974, PBGC insures, subject
to statutory limits, pension benefits of participants in covered private defined benefit pension
plans in the United States. To accomplish its mission and prepare its financial statements,
PBGC relies extensively on the effective operation of the Benefits Administration and Payment
Department (BAPD) and information technology (IT). Internal controls over these operations are
essential to ensure the confidentiality, integrity, and availability of critical data while reducing the
risk of errors, fraud, and other illegal acts.

PBGC has become increasingly dependent on computerized information systems to execute its
operations and to process, maintain, and report essential information. As a result, the reliability
of computerized data and of the systems that process, maintain, and report this data is a major
priority for PBGC. While the increase in computer interconnectivity has changed the way the
government does business, it has also increased the risk of loss and misuse of information by
unauthorized or malicious users. Protecting information systems continues to be one of the most
important challenges facing government organizations today.

Through FISMA, the U.S. Congress showed its intention to enhance the management and
promotion of electronic government services and processes. Its goals are to achieve more
efficient government performance, increase access to government information, and increase
citizen participation in government. FISMA also provides a comprehensive framework for
ensuring the effectiveness of security controls over information resources that support federal
operations and assets. It also codifies existing policies and security responsibilities outlined in
the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

PBGC operates an open and distributed computing environment to facilitate collaboration and
knowledge sharing, and support its mission of protecting the pensions of nearly 44 million
workers and retirees. It faces the challenging task of maintaining this environment, while
protecting its critical information assets against malicious use and intrusion.




                                                   2
The PBGC Office of Inspector General (OIG) contracted with CliftonLarsonAllen LLP to conduct
PBGC's FY 2012 FISMA Independent Evaluation. We performed this evaluation in conjunction
with our review of information security controls required as part of the annual financial statement
audit.

III.   OBJECTIVES

The purposes of this evaluation were to assess the effectiveness of PBGC's information security
program and practices and to determine compliance with the requirements of FISMA and
related information security policies, procedures, standards, and guidelines.

IV.    SCOPE & METHODOLOGY

To perform our review of PBGC's security program, we followed a work plan based on the
following guidance:

        National Institute of Standards and Technology (NIST)’s Recommended Security
         Controls for Federal Information Systems – Special Publication (SP) 800-53 for
         specification of security controls.
        NIST Special Publication 800-37, Guide for the Security Certification and Accreditation
         of Federal Information Systems, for certification and accreditation controls.
        NIST Special Publication 800-53A, Guide for Assessing the Security Controls in Federal
         Information Systems, for the assessment of security control effectiveness.
        Government Accountability Office (GAO)’s Federal Information System Controls Audit
         Manual (FISCAM: GAO-09-232G), for information technology audit methodology.

The combination of these methodologies allowed us to meet the requirements of both FISMA
and the Chief Financial Officer’s Act.

Our procedures included internal and external security reviews of PBGC's information
technology (IT) infrastructure; reviewing agency Plans of Action and Milestones (POA&Ms); and
evaluating the following subset of PBGC's major systems:

          Consolidated Financial System (CFS)
          Integrated Present Value of Future Benefits (IPVFB)
          Legal Management System (LMS)
          Pension and Lump Sum System (PLUS)

We performed procedures to test (1) PBGC’s implementation of an entity-wide security plan,
and (2) operational and technical controls specific to each application such as service continuity,
logical access, and change controls. We also performed targeted tests of controls over financial
and business process applications. We performed our review from April 6, 2012 to September
30, 2012 at PBGC's headquarters in Washington DC. We also performed a security assessment
of the PLUS application in July 2012 at State Street Corporation in Quincy, Massachusetts.

This independent evaluation was prepared based on information available as of September 30,
2012.




                                                3
V.   SUMMARY OF CURRENT YEAR TESTING

Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the, confidentiality, integrity and availability
of transactions and data during application processing.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

IT continues to be a challenge for management. The safeguarding of PBGC’s systems and data
is essential to protect PBGC’s operations and mission. The OIG and others have consistently
identified serious internal control vulnerabilities and systemic security control weaknesses in the
IT environment over the last several years. PBGC’s delayed progress in mitigating these
deficiencies at the root-cause level continued to pose increasing and substantial risks to
PBGC’s ability to carry out its mission during FY 2012. Due to the persistent nature and
extended time required to mitigate such vulnerabilities, additional risks threaten PBGC’s ability
to safeguard its systems. These risks include technological obsolescence, inability to execute
corrective actions, breakdown in communications, and poor monitoring.

PBGC has made some progress in addressing IT security weaknesses at the root-cause level
by continuing the implementation of its FY 2010 Enterprise Corrective Action Plan (CAP), and
introducing additional reporting controls to track progress. Additional tracking controls include
the Enterprise Plan of Action and Milestones (POA&M) and the Progress Status Reports (PSR)
on corrective actions. However, the current PBGC corrective action process remains disjointed,
with stove-piped responsibilities that did not provide a holistic view to inform key decision
makers on progress made and resources needed to complete critical tasks. PBGC is in the
process of improving its corrective action process to be more cohesive where the CAP will
inform the POA&M which will, in turn, provide the Contracts and Control Review Department
(CCRD) with the official status of corrective actions to be included in the Listing of Open OIG
Recommendations.

The Corporation has also made progress in addressing the design of its infrastructure, account
management, enterprise security management, and configuration management, but the control
processes have not reached a level of maturity to prove their effectiveness. PBGC is
implementing a disciplined and integrated approach to its Configuration, Change, and Release
Management (CCRM) process and procedures consistent with NIST SP 800-53, Rev 3. The
Corporation has also developed and is implementing additional policies and procedures;
additional technical and configuration management tools are also being deployed. However,
much remains to be done, and the pace of progress remains slow.

PBGC anticipated completing the assessment and authorization (A&A) process, formerly
referred to as a certification and accreditation process, on the Corporation’s major applications
in FY 2012, but was unable to complete the process. The work on the A&As that has been
performed through FY 2012 identified significant fundamental security control weaknesses in
PBGC’s general support systems, many of which were reported in prior years’ audits and
remain unresolved. We continued to find deficiencies in the areas of security management,
access controls, configuration management, and segregation of duties. Control deficiencies


                                                 4
were also found in policy administration, and the completion of A&As for all major applications.

PBGC developed an information security policy framework, including the Information Security
Policy which is supported by standards, processes, procedures, and a guide published in June
2012, The Office of Information Technology (OIT) Security Authorization Guide. This Guide
provides steps and templates for use in preparing and completing the Security Authorization
and Assessment process which follows National Institute of Standards and Technology (NIST)
Special Publication (SP) 800-37. Also, the Guide provides a checklist to support OIT’s review of
submitted artifacts as evidence of controls implemented. PBGC is documenting the review
process with the checklist. The new information security policy framework has not reached a
level of maturity to determine its effectiveness. PBGC is still in the process of establishing an
enterprise-wide continuous monitoring program; and deploying additional network management,
monitoring and configuration tools in its environment.

Our current year audit work found deficiencies in the areas of security management, access
controls, and configuration management. Control deficiencies were also found in policy
administration, and the A&A of major applications and contractor systems. An effective entity-
wide security management program requires a coherent strategy for the architecture of the IT
infrastructure, and the deployment of systems. The implementation of a coherent strategy
provides the basis and foundation for the consistent application of policy, controls, and best
practices. PBGC needs to continue improving and implementing a more cohesive corrective
action process to address its programmatic IT weaknesses. This framework will require time for
effective control processes to mature.

The financial internal control findings related to entity-wide security program planning and
management, access controls and configuration management were reported in the Report on
Internal Controls Related to the Pension Benefit Guaranty Corporation’s Fiscal Year 2012 and
2011 Financial Statements Audit (AUD-2013-2 /FA-12-88-2)1 issued on November 15, 2012. As
a result of our findings, we made recommendations to correct the deficiencies. A table
summarizing these findings is in Section VII of this report.

In addition, we are reporting deficiencies in the following FISMA areas for FY 2012:

            1. Information Technology Controls for The Protection of Privacy,
            2. Plan of Action and Milestones (POA&M).

In addition, our audit also found deficiencies specifically related to responses required by OMB
Memorandum M-12-20 which are included in this report. These findings and recommendations,
not previously reported, are as follows.

VI.      FINDINGS AND RECOMMENDATIONS

1. Information Technology Controls for The Protection of Privacy

The configuration of one of PBGC’s remote terminal servers allowed all PBGC remote access
users, employees and contractors, read and write access to the server’s local storage drive. The
inadequate configuration resulted in users saving sensitive information to the drive and allowing
other users (remote access PBGC employees and contractors) access to that information.

1
    http://oig.pbgc.gov/pdfs/FA-12-88-2.pdf




                                                   5
Information discovered on the local storage drive included participant Privacy Act data, i.e.,
personally identifiable information (PII)2.

Recommendations:

     o    Immediately restrict access to the local storage drive on the remote terminal server so
          that only authorized users may read and write to the drive. (OIG Control Number
          FISMA-12-01)

          Management Response

          In FY2012 when this vulnerability was identified, OIT immediately reviewed and initiated
          actions to restrict access capabilities to the identified remote terminal server. OIT will
          provide evidence that this vulnerability no longer exists by June 30, 2013. We will then
          prepare and submit a Recommendation Completion Form for this item.

     o    Review all servers which permit remote access and validate that permissions to the local
          drive are configured in accordance with the concept of least privilege. (OIG Control
          Number FISMA-12-02)

          Management Response

          Based on the scope of actions executed to remediate FISMA 12-01, OIT will need time
          to complete the confirmation of our restricting least privilege remote access to all
          servers. While we plan to take action during FY 2013, we expect that we will need
          several months to collect the evidence to demonstrate we have installed and are
          following the installed solution. This places the expected timeframe to submit a
          Recommendation Completion Form on this by December 31, 2013.

PBGC has not implemented controls to protect all PII in its development environment, which
does not have the same level of security controls as its production systems. Furthermore,
backup tapes also have PII, but have not been encrypted to protect data from unauthorized
disclosure.

Recommendations:

     o    Remove PII from the development environment. (OIG Control Number FISMA-11-02)

          PBGC’s Scheduled Completion Date 6/30/2014:

     o    Encrypt and secure backup tapes that contain PII. (OIG Control Number FISMA-11-03)

          PBGC’s Scheduled Completion Date 06/30/2013:




2
     Personally identifiable information (PII) is any information about an individual that is maintained by an agency, including
information that can be used to distinguish or trace an individual’s identity, such as name, social security number, date and place of
birth, mother’s maiden name, or biometric records; and any other information that is linked or linkable to an individual, such as
medical, educational, financial, and employment information (based on General Accountability Office and Office of Management and
Budget definitions).



                                                                  6
PBGC has not completed the security categorization of all of its information systems.

Recommendations:

   o   Complete the security categorization of PBGC information systems. (OIG Control
       Number FISMA-11-04)

       PBGC’s Scheduled Completion Date 12/31/2012:

   o   Implement minimum security requirements to secure the CDMS application. (OIG
       Control Number FISMA-11-05)

       PBGC’s Scheduled Completion Date 08/31/2013:

2. Plan of Action and Milestones (POA&M)

PBGC is still working on the process of consolidating its POA&Ms into an agency-wide POA&M.
The process is not fully developed and implemented. In the spring of 2012, the new process
was initiated, which includes having the Information System Security Officers (ISSOs) work with
the Information System Owners (ISOs) to ensure that POA&M submissions are uniform. The
PBGC Plan of Action and Milestones Process has a template with the required and optional
fields and related definitions. These new submissions are being uploaded to the new PBGC
POA&M database. The new process requires Information System/Information Owners to submit
POA&M updates quarterly and the Senior Agency Information Security Officer (SAISO) is
required to prepare an agency-level report for the Chief Information Officer (CIO). After the 1Q
2012 POA&M data call, the Enterprise Information Security Office prepared the Plan of Action &
Milestones Quarterly Analysis FY 2012 – 1st Quarter, March 2012. Since the POA&M is a new
process, and still being implemented, no evidence was provided to show that the CIO centrally
tracks, maintains and reviews/validates (independently) POA&M activities, at least, on a
quarterly basis, this finding continues for FY 2012.

Recommendations:
   o   Develop, maintain and update PBGC’s entity-wide plan of action and milestones, at least
       on a quarterly basis, and ensure it includes all entity-wide security deficiencies noted.
       (OIG Control Number FISMA-09-08)

       PBGC’s Scheduled Completion Date 12/31/2012:

   o   Disseminate PBGC’s entity wide POA&M to all responsible parties to ensure corrective
       actions are taken in accordance with POA&M. (OIG Control Number FISMA-09-09)

       PBGC’s Scheduled Completion Date 12/31/2012:

PBGC’s POA&M process is not mature and effective. We noted the following deficiencies in FY
2009, FY 2010, FY 2011, and again in FY 2012:
        No evidence that reports on the progress of security weakness remediation is being
          provided to the Chief Information Officer (CIO) on a regular basis.
        No evidence that the PBGC CIO centrally tracks, maintains, and independently
          reviews/validates POA&M activities on at least a quarterly basis.



                                               7
In FY 2012, PBGC created the “PBGC Plan of Action and Milestone Process” noted above,
however, the implementation of the new process has not reached a level of maturity to
determine its effectiveness.

Recommendations:

   o   Ensure that the agency and program specific plan of action and milestones are tracked
       appropriately and provided to PBGC’s CIO regularly. (OIG Control Number FISMA-09-
       10)

       PBGC’s Scheduled Completion Date 12/31/2012:

   o   Ensure PBGC’s CIO centrally tracks, maintains and independently reviews/validates
       POA&M activities, at least on a quarterly basis. (OIG Control Number FISMA-09-11)

       PBGC’s Scheduled Completion Date12/31/2012:




                                             8
  VII. FISMA-RELATED FINDINGS REPORTED IN THE FINANCIAL STATEMENT AUDIT

  The following table summarizes FISMA-related findings noted under entity-wide security
  program planning and management, access controls, and configuration management, that were
  reported in the Report on Internal Controls Related to the Pension Benefit Guaranty
  Corporation’s Fiscal Year 2012 and 2011 Financial Statements Audit (AUD-2013-2 /FA-12-88-2)
  issued November 15, 2012.

                 Finding Summary                                           Recommendation
1. Weaknesses in PBGC’s infrastructure                Effectively communicate to key decision makers the
   design and deployment strategy for systems         state of PBGC’s IT infrastructure and environment to
   and applications adversely affected its ability    facilitate the prioritization of resources to address
   to effectively implement common security           fundamental weaknesses. (OIG Control # FS-09-01)
   controls across its systems and applications.      (PBGC scheduled completion date: June 30, 2013)
   Without        full     development         and
   implementation, security controls are              Document and execute the details of the specific
   inadequate; responsibilities are unclear,          actions needed to complete and confirm the design,
   misunderstood,           and          improperly   implementation, and operating effectiveness of all 130
   implemented; and controls are inconsistently       identified common security controls. (OIG Control #
   applied. Such conditions lead to insufficient      FS-08-01) (PBGC scheduled completion date:
   protection of sensitive or critical resources or   February 28, 2015)
   disproportionately high expenditures for
   controls. PBGC realizes these challenges,          Develop a process to review and validate reported
   and has identified and documented the              progress on the implementation of the common
   enterprise common security controls in the         security controls. Implement a strategy to test and
   Agency Security Controls General Support           document the effectiveness of each new control
   System (ASCGSS) System Security Plan.              implemented. (OIG Control # FS-09-02) (PBGC
   PBGC completed and approved the                    scheduled completion date: September 30, 2012)
   Infrastructure Configuration Management
   Plan in FY 2012. The Corporation also
   approved its CCRM process and procedures
   in FY 2012. The future implementation of
   these strategies is designed to enable
   PBGC to implement a disciplined and
   integrated approach to CCRM, eliminate
   inconsistencies and weaknesses in the
   implementation of the processes and
   procedures and ensure compliance with the
   NIST SP 800-53, Rev 3 common controls.
   However PBGC had not completed and
   confirmed the implementation, and operating
   effectiveness of its common security
   controls;    management          cannot    have
   confidence      that   the      controls   were
   implemented.

2. PBGC had not completed A&As for any                Develop and implement a well-designed security
   major    applications.   However,    PBGC          management program that will provide security to the
   continued to improve the PBGC Enterprise           information and information systems that support the
   Information Security Program which includes        operations and assets of the Corporation, including



                                                      9
             Finding Summary                                    Recommendation
strengthening the system authorization          those managed by contractors or other federal
process,     verifying    contractor    A&A     agencies. (OIG Control # FS-09-03) (PBGC
deliverables, and ensuring their quality and    scheduled completion date: September 30, 2012)
conformance to the statement of work as
well as to the objectives of the PBGC risk      Complete the development and implementation of the
management process and NIST SP 800-53.          redesign of PBGC’s IT infrastructure; and the
PBGC has focused on updating the                procurement and implementation of technologies to
underlying policies, strengthening the          support a more coherent approach to providing
security program overall, obtaining quality     information services and information system
contractors to conduct the assessments, and     management controls. (OIG Control # FS-09-04)
ensuring PBGC prepare for and begin the         (PBGC scheduled completion date: February 28,
execution of the system authorization           2015)
process.
                                                Implement an effective review process to validate the
                                                completion of the A&A packages for all major
                                                applications. The review should not be performed by
                                                an individual associated with the performance of the
                                                A&A, or by someone who could influence the results.
                                                This review should be completed for all components of
                                                the    work    performed    to   ensure    substantial
                                                documentation is available that supports and validates
                                                the results obtained. (OIG Control # FS-08-02)
                                                (PBGC scheduled completion date: June 30, 2013)


                                                Ensure that adequate documentation is maintained
                                                which supports, substantiates, and validates all results
                                                and conclusions reached in the A&A process for all
                                                major applications. (OIG Control # FS-09-05) (PBGC
                                                scheduled completion date: September 30, 2012)

                                                Establish and implement comprehensive procedures
                                                and document the roles and responsibilities that
                                                ensure oversight and accountability in the A&A review
                                                process for major applications. Retain evidence of
                                                oversight reviews and take action to address
                                                erroneous or unsupported reports of progress. (OIG
                                                Control # FS-09-06) (PBGC scheduled completion
                                                date: September 30, 2012)

                                                Maintain an accurate and authoritative inventory list of
                                                major applications and general support systems.
                                                Ensure the list is disseminated to responsible staff and
                                                used consistently throughout PBGC OIT operations.
                                                (OIG Control # FS-09-07) (PBGC scheduled
                                                completion date: September 30, 2012)

                                                Implement an independent and effective review
                                                process to validate the completion of the A&A



                                               10
                 Finding Summary                                         Recommendation
                                                       packages for all major applications. (OIG Control #
                                                       FS-08-03) (PBGC scheduled completion date: June
                                                       30, 2013)

                                                       Implement a documented, independent and effective
                                                       review process to validate the completion of the A&A
                                                       packages for general support systems hosted on
                                                       behalf of PBGC by third party processors. The
                                                       effective review should include examining host and
                                                       general controls risk assessments. (OIG Control # FS-
                                                       08-03) (PBGC scheduled completion date:
                                                       September 30, 2012)

3. Information security policies and procedures        Continue to disseminate the awareness of PBGC’s
   were       not    fully    disseminated     and     security policies and procedures through adequate
   implemented. PBGC is not able to effectively        training. (OIG Control # FS-07-04) (PBGC scheduled
   enforce compliance for all needed security          completion date: September 30, 2012)
   awareness training. PBGC published SE-
   PRC-01-01, Security Awareness and
   Training Procedures, in June 2012. It
   defines both annual security awareness
   requirements and role-based requirements.
   Security incident response training is still in
   development and will be delivered during FY
   2013 for all staff involved in security incident
   management and response. PBGC is in its
   second year of providing an online
   information security awareness module
   supplied by an OMB-approved Information
   System Security Line of Business provider
   (OPM’s Go Learn Learning Management
   System platform). This enables more
   efficient tracking of staff and contractors who
   have taken the module. PBGC fulfilled last
   year’s requirement for general security
   awareness training using this service. Role-
   based training for security is still in the
   development stage. Lack of security
   awareness can lead to increased risk of
   security breaches and exposure to fraud.
   Controls may not be placed in operation as
   mandated by PBGC policies.

4.   PBGC has not executed interconnection             Develop controls and implement an ISA or MOU with
     security     agreements      (ISA)    or          all external organizations whose systems connect to
     memorandums of understanding (MOU)                PBGC’s systems. (OIG Control # FS-10-03) (PBGC
     between all external organizations whose          scheduled completion date: September 30, 2012)
     systems    interconnect   with    PBGC’s
     systems. Controls to require such



                                                      11
                  Finding Summary                                        Recommendation
     agreements do not exist. PBGC is in the
     process of planning and documenting ISAs
     with all external organizations’ systems. In
     the absence of an ISA and MOU, either
     party (PBGC or external system owner)
     may be unfamiliar with the technical
     requirements of the interconnection and the
     details that may be required to provide
     overall security for systems that are
     interconnected.

5.   PBGC’s configuration management controls         Develop and implement procedures and processes for
     are labor intensive and ineffective.             the    consistent   implementation     of   common
     Weaknesses in the design of PBGC’s               configuration management controls to minimize
     infrastructure and deployment strategy for       security weaknesses in general support systems. (OIG
     systems and applications created an              Control # FS-07-07) (PBGC scheduled completion
     environment      where     strong   technical    date: October 31, 2013)
     controls and best practices cannot be
     effectively   implemented.      Configuration    Develop and implement a coherent strategy for
     management        controls    are  therefore     correcting IT infrastructure deficiencies and a
     inconsistently implemented across PBGC’s         framework for implementing common security controls,
     general support systems. PBGC’s three IT         and mitigating the systemic issues related to access
     environments (development, test, and             control by strengthening system configurations and
     production) do not share common server           user account management for all of PBGC’s
     configurations; therefore, management            information systems. (OIG Control # FS-09-12)
     cannot rely on results obtained in the           (PBGC scheduled completion date: October 31,
     development or test environments prior to        2013)
     deployment in production. Overall, the           Establish baseline configuration standards for all of
     PBGC environment suffers from inadequate         PBGC’s systems. (OIG Control # FS-09-13) (PBGC
     configuration, roles, privileges, logging,       scheduled completion date: October 31, 2013)
     monitoring, file permissions, and operating
     system access.                                   Review configuration settings and document any
                                                      discrepancies from the PBGC configuration baseline.
                                                      Develop and implement corrective actions for systems
                                                      that do not meet PBGC’s configuration standards.
                                                      (OIG Control # FS-09-14) (PBGC scheduled
                                                      completion date: October 31, 2013)

                                                      Ensure test, development and production databases
                                                      are appropriately segregated to protect sensitive
                                                      information, and fully utilized to increase system
                                                      performance. (OIG Control # FS-09-15) (PBGC
                                                      scheduled completion date: October 31, 2013)

                                                      Establish interim procedures to implement available
                                                      compensating controls (such as establishing a test
                                                      team to verify developer changes in production) until a
                                                      comprehensive solution to adequately segregate test,
                                                      development and production databases can be



                                                     12
                 Finding Summary                                       Recommendation
                                                      implemented. (OIG Control # FS-09-16) (PBGC
                                                      scheduled completion date: October 31, 2013)

6.   PBGC’s policies and practices have not           Continue to remove unnecessary user and generic
     effectively restricted the addition of           accounts. (OIG Control # FS-07-08) (PBGC
     unnecessary and generic accounts to              scheduled completion date: July 31, 2012)
     systems in production. Consequently, the
     number of unnecessary and generic                Assess the risk associated with the lack of segregation
     accounts grew over the years. Furthermore,       of duties, password management, and overall
     PBGC’s         configuration    management       inadequate system configuration. Discuss risk with
     weaknesses have contributed significantly        system owners and implement compensating controls
     to its inability to effectively implement        wherever possible. If compensating controls cannot be
     controls to ensure the consistent removal        implemented the system owner should sign-off
     and locking out of generic or dormant            indicating risk acceptance. (OIG Control # FS-09-17)
     accounts. PBGC has made progress in the          (PBGC scheduled completion date: February 15,
     recertification   and      dormant    Account    2013)
     Process. However, not all major systems
     have gone through the recertification            For the remaining systems, apply controls to
     process such as those in the Benefits            remove/disable inactive and dormant accounts after a
     Administration and Payment Department.           specified period in accordance with the IAH. (OIG
     Furthermore, the actual removal of dormant       Control # FS-07-12) (PBGC scheduled completion
     accounts from systems is still a manual          date: July 31, 2012)
     process and remains a risk to the timeliness
     of effective removal. The lack of controls to
     remove/disable inactive accounts and
     dormant       accounts     exposes    PBGC’s
     systems to exploitation and compromise.
     PBGC has taken action to review generic
     accounts in the general support system,
     removing those that are unnecessary, and
     approving those that are necessary;
     however, more work is needed to ensure
     that all unnecessary and generic accounts
     are removed. Failure to identify and remove
     unnecessary accounts from the system
     could result in PBGC’s systems being at an
     increased risk for unauthorized access,
     modification, or deletion of sensitive system
     and/or participant information.

7.   Some developers have access to the               Appropriately restrict developers’ access to production
     production environment, which exposes            environment to only temporary emergency access.
     PBGC to the risk of unauthorized                 (OIG Control # FS-07-10) (PBGC scheduled
     modification of the application, the             completion date: December 31, 2012)
     circumvention of critical controls, and
     unnecessary access to sensitive data.
     Weaknesses in the design of PBGC’s
     infrastructure and deployment strategy for
     legacy systems and applications created an



                                                     13
                   Finding Summary                                         Recommendation
     environment where developers have
     unrestricted access to production. PBGC
     has identified the developers who have
     access to particular production assets, and
     removed unnecessary developer access to
     production. Service Desk tickets were
     submitted      to    re-establish necessary
     developer access along with associated
     necessary Risk Acceptance forms. The
     Corporation now has mechanisms in place
     within the automated Enterprise Local Area
     Network (eLAN) process and records to
     document development team members’
     access.      There     is   now   a    better
     understanding of risks associated with
     developers’ access to production to ensure
     access is evaluated before granting. All
     developers’ access to production has not
     been eliminated; PBGC is in the process of
     implementing compensating controls to
     restrict developer’s access to production.
     However, PBGC has not fully resolved
     infrastructure design issues. In the interim,
     PBGC implemented ACLs that will act as
     static firewalls until the comprehensive
     solution is fully implemented.

8.   Controls are not consistently applied to           Consistently apply     controls to ensure that
     ensure that authentication parameters for          authentication parameters for PBGC’s general support
     general support systems (e.g. Novell,              systems (e.g. Novell, Windows, Sun Solaris, Oracle,
     Windows, SUN Solaris, Oracle, etc.) and            etc.) and applications comply with the IAH. (OIG
     applications comply with the Information           Control # FS-07-11) (PBGC scheduled completion
     Assurance Handbook (IAH). PBGC’s                   date: July 31, 2014)
     decentralized     approach    to    system
     development         and       configuration        Implement a manual review process whereby OIT
     management has made it particularly                periodically reviews systems for compliance with
     difficult to implement consistent technical        baseline settings. (OIG Control # FS-09-19) (PBGC
     controls across PBGC’s many systems,               scheduled completion date: October 31, 2013)
     platforms, and applications.

9.   The OIT recertification process remains            Complete the implementation of the recertification
     incomplete and does not include all user           process for all user and system accounts. Continue to
     and system accounts. In addition, the              perform annual recertification and include all PBGC’s
     Recertification of User Access Process,            accounts (e.g. user, generic, service, and systems
     version 4.0, does not explicitly state that all    accounts) for general support systems and major
     accounts (e.g. user, system, and service)          applications. (OIG Control # FS-07-13) (PBGC
     across all platforms and applications will be      scheduled completion date: July 31, 2013)
     recertified annually. PBGC’s infrastructure
     design and configuration management



                                                       14
                 Finding Summary                                           Recommendation
     weaknesses have contributed significantly
     to its inability to effectively implement
     controls to recertify all user and system
     accounts. The recertification process is still
     undergoing changes to ensure all major
     information systems are reviewed. PBGC
     implemented an automated eLAN workflow
     process at the end of FY 2011, which
     provided another way for PBGC’s
     customers to interact with the Service Desk
     and submit network and application
     services (eLAN) access requests. Effective
     May 1, 2012, PBGC required that users
     discontinue submitting paper eLAN forms
     and instead use the automated system,
     except in situations where the automated
     system does not accommodate a user’s
     unique and specific access request due to
     services and functions that aren’t available
     in PBGC’s current Service Catalog. In those
     cases, the Service Desk is prepared to
     assist the user with the completion of the
     paper eLAN until the automated system can
     be modified. Current plans are to
     incorporate        additional      workflow
     modifications, to eliminate the need for any
     paper forms, into a planned Service
     Manager, version 7 to version 9 migration
     which is scheduled for FY 2013.

10. Vulnerabilities found in key databases and          Implement controls to remedy vulnerabilities noted in
    applications     include     weaknesses       in    key databases and applications such as weaknesses
    configuration, roles, privileges, auditing, file    in configuration, roles, privileges, auditing, file
    permissions, and operating system access.           permissions, and operating system access. (OIG
    These PBGC system vulnerabilities are               Control # FS-07-14) (PBGC scheduled completion
    caused by an ineffective deployment                 date: October 31, 2013)
    strategy in the development, test, and
    production      environments.       Ineffective     Implement controls to remedy weaknesses in the
    system deployments have resulted in an              deployment of servers, applications, and databases in
    environment that is in disarray. PBGC has           the development, test, and production environments.
    deployed additional technical tools to              (OIG Control # FS-09-20) (PBGC scheduled
    address this weakness, but requires                 completion date: October 1, 2014)
    additional cycle time to determine
    effectiveness. Security control weaknesses
    and vulnerabilities in key databases remain
    unresolved. These control weaknesses are
    scheduled to be corrected in 2013. These
    weaknesses expose PBGC to increased
    risk of data modification or deletion.



                                                       15
                Finding Summary                                           Recommendation
     Unauthorized changes could occur and not
     be detected.

11. Periodic logging and monitoring of security-       Implement a logging and monitoring process for
    related events for PBGC’s applications             application security-related events and critical system
    were inadequate for CFS, Premium                   modifications (e.g. CFS, PAS, TAS, PRISM, and
    Accounting       System      (PAS),      Trust     IPVFB). (OIG Control # FS-07-17) (PBGC scheduled
    Accounting System (TAS), Participant               completion date: April 30, 2013)
    Records Information Systems Management
    (PRISM), and Integrated Present Value of
    Future Benefits (IPVFB) systems. PBGC’s
    IT infrastructure consists of multiple legacy
    systems and applications (e.g. PAS, TAS,
    IPVFB, PRISM, etc.) that do not have a
    coherent architecture for management and
    security.

12. The application virtualization/application         Include the application virtualization/application
    delivery product used by PBGC’s benefit            delivery product used by the benefit payments service
    payments service provider to connect to its        provider to access the PLUS application in the system
    benefit payments system, PLUS, is not              boundary. (OIG Control # FS-10-05) (PBGC
    included in the system boundary when               scheduled completion date: TBD)
    conducting the A&A for the PLUS
    application. There is no documented
    security plan, risk assessment, security
    controls testing and continuous monitoring
    program         for       the       application
    virtualization/application delivery product.

13. Privileged TeamConnect group accounts              Establish unique accounts for each user in
    use shared accounts to grant access to             TeamConnect. (OIG Control # FS-11-02) (PBGC
    users. The activity by these privileged users      scheduled completion date: TBD)
    cannot be tracked and/or traced to an
    individual user. Additionally, TeamConnect         Restrict developer’s access to production. (OIG
    developers have access to both the                 Control # FS-11-03) (PBGC scheduled completion
    development and production system.                 date: September 30, 2012)
    Malicious changes could be made without
    detection.                                         Implement a log review process that does not rely on
                                                       the TeamConnect’s developers reviewing the logs.
                                                       (OIG Control # FS-11-04) (PBGC scheduled
                                                       completion date: TBD)

                                                       Implement compensating controls for log and review of
                                                       changes made by powerful shared accounts. (OIG
                                                       Control # FS-11-05) (PBGC scheduled completion
                                                       date: TBD)




                                                      16
VIII. FISMA RECOMMENDATIONS CLOSED IN FISCAL YEAR 2011

        OIG Control Number   Date Closed              Original Report Number
        FISMA-11-06          October 22, 2012         EVAL-2012-9/FA-11-82-7


IX.   PRIOR AND CURRENT YEARS’ OPEN FISMA RECOMMENDATIONS

        OIG Control Number                 Original Report Number

        Prior Year
        FISMA-09-08                        AUD-2010-6/FA-09-64-6
        FISMA-09-09                        AUD-2010-6/FA-09-64-6
        FISMA-09-10                        AUD-2010-6/FA-09-64-6
        FISMA-09-11                        AUD-2010-6/FA-09-64-6
        FISMA-11-01                        EVAL-2012-9/FA-11-82-7
        FISMA-11-02                        EVAL-2012-9/FA-11-82-7
        FISMA-11-03                        EVAL-2012-9/FA-11-82-7
        FISMA-11-04                        EVAL-2012-9/FA-11-82-7
        FISMA-11-05                        EVAL-2012-9/FA-11-82-7


        Current Year
        FISMA-12-01
        FISMA-12-02




                                    17
X.   MANAGEMENT RESPONSE




                           18
19
If you want to report or discuss confidentially any instance of misconduct,
   fraud, waste, abuse, or mismanagement, please contact the Office of
                             Inspector General.



                              Telephone:
                   The Inspector General’s HOTLINE
                           1-800-303-9737

          The deaf or hard of hearing, dial FRS (800) 877-8339
           and give the Hotline number to the relay operator.



                                   Web:
               http://oig.pbgc.gov/investigation/details.html



                                Or Write:
                 Pension Benefit Guaranty Corporation
                      Office of Inspector General
                            PO Box 34177
                    Washington, DC 20043-4177
